JOHN CREUZOT
CRIMINAL DISTRICT ATTORNEY
DALLAS COUNTY, TEXAS
August 24, 2021
Honorable Danny Bickell, Deputy Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Roderick Napoleon Harris, Petitioner v. Texas, No. 20-8462 (Capital Case)

Dear Mr. Bickell:
Respondent respectfully requests a thirty-day extension of time, until September
29, 2021, to file a brief in opposition in the above-styled case. Respondent’s
current deadline, with one extension, is August 30, 2021.
This request is not intended to unnecessarily delay the proceeding. Respondent
requests this extension because, due to time expended on undersigned counsel’s
capital cases (including preparation of 22 boxes of files for discovery), supervisory
duties in the Dallas County District Attorney’s office, other work-related
obligations, and time out of the office for a pre-scheduled vacation during August,
undersigned counsel needs additional time to complete the brief in opposition and
sufficiently address Mr. Harris’s issues.
Petitioner Roderick Harris’s counsel, Gwendolyn Payton, has advised she has no
objection to this request for an extension. I appreciate your consideration of this
matter.
Sincerely,
/s/ Michele O’Brien Yeatts
Michele “Shelly” O’Brien Yeatts
Assistant District Attorney, Appellate Division
Dallas County District Attorney’s Office
(214) 653-3630
syeatts@dallascounty.org
cc:

Gwendolyn C. Payton, gpayton@kilpatricktownsend.com
Benjamin Wolff, Benjamin.Wolff@ocfw.texas.gov
Frank Crowley Courts Building, 133 N. Riverfront Blvd., LB-19, Dallas, Texas 75207-4399 | (214) 653-3600

